U.S. Small Business Administration
Office of Inspector General

 _________________________________


       Semiannual Report to Congress
               Spring 2004
                      S




       October 1, 2003 – March 31, 2004
   Inspector General Act Statutory Reporting Requirements

The specific reporting requirements prescribed in the Inspector General Act of 1978, as amended by the
Inspector General Act Amendments of 1988, are listed below.


Source                                                                                  Page
Section 4(a)(2 )    Review of Legislation and Regulations                                  17

Section 5(a)(1)     Significant Problems, Abuses, and Deficiencies                       3-16

Section 5(a)(2)     Recommendations with Respect to Significant Problems, Abuses         9-16
                    And Deficiencies

Section 5(a)(3)     Prior Significant Recommendations Not Yet Implemented               30-31

Section 5(a)(4)     Matters Referred to Prosecutive Authorities                         26-29

Section 5(a)(5)     Summary of Instances Where Information Was Refused                  None
 And 6(b)(2)

Section 5(a)(6)     Listing of OIG Reports                                                 19

Section 5(a)(7)     Summary of Significant Audits & Other Reports                        9-16

Section 5(a)(8)     Audit Reports with Questioned Costs                                    20

Section 5(a)(9)     Audit Reports with Recommendations that Funds Be Put to Better Use 20

Section 5(a)(10)    Summary of Reports From Prior Semiannual Reports
                    Where No Management Decision Was Made                               22-23

Section 5(a)(11)    Significant Revised Management Decisions                            None

Section 5(a)(12)    Significant Management Decisions with Which the OIG Disagreed       None
                  A Message From The Inspector General

I am pleased to present the Small Business Administration (SBA), Office of Inspector General (OIG),
Semiannual Report covering activities from October 1, 2003 through March 31, 2004.

During this reporting period, we issued 19 reports with significant recommendations for improving
Agency operations, reducing fraud and unnecessary losses, and recovering funds. OIG investigations led
to 17 indictments and 13 convictions of subjects who defrauded the Federal government. In addition, the
Office collectively reviewed 72 legislative, regulatory, policy, procedural, and other proposals concerning
the SBA and government-wide programs. With a staff of 100, the OIG continues to produce substantial
savings and important program improvements.

Equally important, the OIG continues to monitor and adjust to, SBA’s transformation into a new type of
organization. The Agency seeks to leverage its limited resources by relying more on private and
nonprofit sector partners, computer technology, and the consolidation of functions, including the new loan
liquidation center in Herndon, Virginia. Nonetheless, while streamlining can reduce operational costs, the
side effects can be increased risks for waste, fraud, and abuse, as well as diminished accountability, as
fewer experienced employees are available to oversee programs.

Moreover, various types of fraud continue to plague the Agency. For example, the OIG, in conjunction
with other Federal and state agencies, has demonstrated a pattern of borrowers falsely claiming to be U.S.
citizens, with millions of dollars of loans at risk. Thus far during Fiscal Year 2004, a number of
individuals have been convicted or indicted for this type of crime and more are expected. In response to
the OIG’s efforts, SBA has begun to mitigate the vulnerabilities that enable such false claimants to
receive funding.

Another major challenge is SBA’s lack of an integrated financial accounting system and reporting
process, which led to a disclaimer of an opinion on both the FY 2003 and restated FY 2002 Financial
Statements. While the results of the audit were disappointing, SBA’s Administrator and Chief Financial
Officer have expressed their commitment to improve SBA’s financial management process and related
financial statements.

I would like to thank Administrator Barreto for his support of the OIG and our work. We will continue to
make every effort to protect the interests of taxpayers and small businesses as we work closely with the
Agency and the Congress.




                                                         Harold Damelin
                                                         Inspector General
                                                   Table of Contents


Overview of the SBA and the OIG............................................................................................. 1

Significant OIG Activities......................................................................................................... 3

     Goal 1:       Prevent Fraud and Unnecessary Losses in SBA Programs …………………………. 3

     Goal 2:       Improve the Security Over and the Accuracy of SBA Accounting
                   and Management Information ...............................................................................11

     Goal 3:       Assist SBA in Improving its Small Business Development Programs
                   and Government Contracting ................................................................................13

     Goal 4:       Assist SBA Management in Identifying and Resolving Persistent
                   and Emerging Management Issues........................................................................15

Other Significant Management Issues ........................................................................................16

Statistical Highlights.................................................................................................................17

Appendix

     I.      OIG Reports Issued ...................................................................................................19

     II.     OIG Reports with Questioned Costs............................................................................20

     III.    OIG Reports with Recommendations that Funds Be Put to Better Use...........................20

     IV.     OIG Reports with Non-Monetary Recommendations ...................................................21

     V.      OIG Reports From Prior Semiannual Periods with Overdue Management
             Decisions as of March 31, 2004 .................................................................................22

     VI.     OIG Reports Without Final Action as of March 31, 2004 .............................................24

     VII. 6-Month Legal Actions Summary ...............................................................................26
     VIII. Significant Recommendations From Prior Semiannual Reporting Periods
           Without Final Action as of March 31, 2004 ................................................................30
                       Overview of the SBA and the OIG
The Small Business Administration

The Small Business Administration (SBA) was established in 1953 to assist small businesses from startup
through the many stages of growth. The SBA’s two major goals are to help small businesses succeed and
to recover from disasters. The SBA offers many services to entrepreneurs through its Offices of Capital
Access, Entrepreneurial Development, Government Contracting and Business Development, and Disaster
Assistance. Services include assistance with developing business plans using counseling services and
resource partners; obtaining financing through the Agency’s various business and disaster lending
programs; marketing products and services; accessing Federal procurement opportunities; and addressing
management issues. The SBA’s programs are delivered by a network of field offices in every state, the
District of Columbia, the U.S. Virgin Islands, Guam, American Samoa, and Puerto Rico. The SBA has
an FY 2004 appropriation of $756 million, and as of March 31, 2004, had 3,310 employees (number of
employees includes the Office of Disaster Assistance and Office of Inspector General (OIG) personnel).

The Office of Inspector General

The SBA OIG was established by the Inspector General (IG) Act of 1978. Through its five divisions, the
OIG performs the following functions nationwide, as mandated by Congress.

   •   The Auditing Division performs program performance reviews, internal control assessments, and
       financial, information technology, and mandated audits to promote the economical, efficient, and
       effective operation of SBA programs.

   •   The Investigations Division manages a program to prevent and detect illegal and/or improper
       activities involving SBA programs, operations, and personnel. The criminal investigative staff
       carries out a full range of traditional law enforcement functions. The security operations staff
       ensures that all Agency employees have the appropriate background investigations and security
       clearances for their duties. The name check program provides SBA officials with character-
       eligibility information on loan applicants and other potential program participants.

   •   The Inspection and Evaluation Division conducts assessments of the effectiveness of SBA
       programs and activities, analyses of critical program issues, best practices studies, and research
       on matters concerning performance.

   •   The Counsel Division provides legal and ethical advice to all OIG components, represents the
       OIG in litigation arising out of or affecting OIG operations, assists with the prosecution of civil
       enforcement matters, and processes subpoenas and Freedom of Information and Privacy Act
       requests.

   •   The Management and Policy Divis ion is responsible for developing and executing the OIG
       budget; developing and supporting information systems and hardware; developing the OIG
       Human Resource (HR) policy and providing a full-service HR program to the OIG; providing
       support services to headquarters OIG employees; managing a nationwide facilities management
       function; providing communications services; authoring and publishing semi-annual, strategic,
       performance, and operating pla ns and reports; and reviewing and commenting on proposed
       Agency policy.



                                                     1
                                     Overview of the SBA and the OIG

            The OIG is headquartered in Washington, DC, and has field audit and investigation offices in Atlanta,
            Chicago, Dallas, Denver, Houston, Kansas City, Los Angeles, Philadelphia, New York, San Juan, and Seattle.

            As of March 31, 2004, the OIG’s on-board strength was 100. The OIG FY 2004 appropriation is $13.358
            million, with a $495,000 transfer for disaster assistance oversight activities (net of rescissions).

            The OIG’s responsibility is to improve SBA programs by identifying key issues facing the Agency, ensuring
            that corrective actions are taken, and promoting a high level of integrity. The OIG continues to focus on
            serving the needs of our customers and stakeholders and on safeguarding SBA resources from waste, fraud,
            and abuse. The five strategic goals we seek to achieve are to: (1) prevent fraud and unnecessary losses in
            SBA programs; (2) improve the security over and the accuracy of SBA accounting and management
            information; (3) assist SBA in improving its small business development programs and Government
            contracting; (4) assist SBA management in identifying and resolving persistent and emerging management
            issues; and (5) strengthen our ability to identify and have maximum impact on the most significant SBA
            issues.

                                              Office of Inspector General

                                                            Inspector
                                                             General

                                                                                        Counsel Division

                                                        Deputy Inspector
                                                            General




       Auditing Division                Inspection and                  Investigations Division                Management and Policy
                                      Evaluation Division                                                            Division



Credit Programs    Financial                Business Development          Los Angeles        Washington, DC         Atlanta     Chicago
Group              Management & IT          Programs Group
                   Group


  Washington, DC           Washington, DC          Washington, DC             Seattle           Philadelphia           Dallas          Denver


      Atlanta                                                                                    New York             Houston          Kansas
                                                                                                                                        City

       Dallas                                                                                   Puerto Rico


    Los Angeles


      Chicago



                                                                    2
                              Significant OIG Activities

Goal 1: P re ve nt F raud a nd Unne c e ssary Losse s in SB A P rogra ms
The SBA has a wide range of programs designed to help small businesses gain access to capital,
participate in the Federal procurement market, and better plan and manage their operations. Seventy-five
percent of the SBA’s resources are devoted to providing financial assistance to qualified small businesses.
The Section 7(a) Guaranteed Loan Program is the SBA’s largest lending program and the primary vehicle
for providing small businesses access to credit they cannot obtain elsewhere. This program is vulnerable
to fraud and unnecessary losses because it relies on numerous parties (including borrowers, loan agents,
lenders, and the SBA) to complete loan transactions. The processes for loan approval are risky, and no
party has complete knowledge of the activities of all of the other parties.

The Disaster Loan Program is another key SBA lending program. It is the primary form of direct Federal
assistance for non-farm private sector disaster losses. This highly visible program is vulnerable to fraud
and unnecessary losses due to the need to expedite processing of disaster loans.

All SBA programs have some vulnerability either because of insufficient internal controls or dishonest
program participants who seek to take advantage of the program. As the SBA seeks to reengineer its
business loan programs, vulnerabilities may increase.

Fraud Detection and Prevention
During this semiannual reporting period, the efforts of the Investigations Division resulted in
approximately $6.1 million in potential fines and recoveries, $13.5 million in loans/contracts not being
approved, 17 indictments, and 13 convictions. During this reporting period, the Investigations Division
opened 50 new cases and closed 62 cases. Investigations were initiated as a result of complaints and
allegations received from both the Agency and the public. The basic underlying theme in almost all of
the allegations comes down to one concept – a person or a company made misrepresentations to obtain
money from the SBA or to qualify for participation in an SBA program. Generally the misrepresentation
occurs before the approval, but some occur after the fact.

Misrepresentations take several forms. They may be related to the applicant’s financial situation, the
individual’s criminal history, the actual use of funding provided through an SBA program, or the person’s
true identity or status of citizenship. The misrepresentations may involve elaborate plots with forged
documents and corrupt employees of the lending institution or of the Government, or failure to admit to
previous bankruptcy or to include the SBA loan on a new bankruptcy. The examples below demonstrate
the types of misrepresentations that lead to a vulnerability for the Agency. Because the SBA relies so
heavily upon the truthfulness of the applicants, this will remain an extremely vulnerable area that the OIG
will continue to focus on.




                                                     3
                                Significant OIG Activities

False Claims of U.S. Citizenship Continue

As discussed in the previous Semiannual Report, Operation Fleeced America, based in Texas, has led to
legal actions against individuals who falsely claim to be U.S. citizens on the SBA Statement of Personal
History (Form 912) and on applications for Texas alcoholic beverage licenses. The ongoing operation has
shown a pattern of false citizenship claims on SBA loans, with some loans more than $1 million in size.
This operation is part of a continuing joint effort among state and Federal agencie s to disrupt organized
criminal enterprises that coordinate similar financial violations across the U.S. and to identify the final
destinations of monetary proceeds.

In the first four examples shown below, the SBA OIG conducted the investigations jointly with the
Department of the Treasury’s OIG for Tax Administration, Department of Homeland Security (DHS),
Social Security Administration (SSA), the Department of Agriculture, and the Texas Alcoholic Beverage
Commission. In the third and fourth examples, the Texas Department of Public Safety also participated.

    •   The owner of a convenience store and service station in Grand Prairie , Texas, was sentenced to
        6 months incarceration and fined $2,500 for making a false statement to SBA. He had induced a
        financial institution and SBA into funding a $675,000 guaranteed loan by falsely representing
        himself as a U.S. citizen. This investigation was initiated based on a referral from the former
        Immigration and Naturalization Service (INS).

    •   A convenience store owner in Fort Worth, Texas, was sentenced to 2 months incarceration and
        fined $5,000 for making a false statement to SBA. He had induced a bank and SBA to fund a
        $435,000 guaranteed loan by falsely representing himself as a U.S. citizen. This investigation
        was initiated based on a referral from INS.

    •   A convenience store and service station owner in North Richland Hills, Texas, was indicted for a
        false claim of U.S. citizenship and making a false statement to SBA. He had induced a bank and
        SBA into funding a $1,200,000 guaranteed loan by falsely representing himself as a U.S. citizen.

    •   A convenience store and service station owner in Arlington, Texas, was indicted for a false claim
        of U.S. citizenship. His wife was indicted for inducing a financial institution and SBA to fund a
        $605,000 guaranteed loan by falsely representing herself as a U.S. citizen.

In other parts of the Nation:

    •   Two Chicago business owners, a husband and wife, were indicted for conspiracy to submit false
        statements to a financial institution. In addition, the husband was charged with bribery of a
        public official, submitting false statements and reports to a financial institution, possession and
        use of a counterfeit U.S. Certificate of Naturalization, and aiding and abetting, in connection with
        his Section 504 loan application. The business owner was previously arrested and charged for
        bribery of a public official and for submitting a false statement to a financial institution, in
        connection with his Section 504 loan application. Although he claimed to be a U.S. citizen in his




                                                     4
                             Significant OIG Activities

       application, an OIG investigation revealed that he was not a citizen and was residing in the U.S.
       illegally. When the SBA requested that the Certified Development Company (CDC) obtain
       evidence of naturalization, he admitted that he was not a U.S. citizen and requested a meeting
       with an SBA official. At that meeting, he again admitted he was not a U.S. citizen, presented a
       counterfeit certificate of naturalization, and offered a $5,000 cash bribe to the SBA official who
       was cooperating with the OIG. The owner was arrested outside of the SBA Illinois District
       Office. This investigation also found that the wife had conspired with her husband to prepare and
       submit several application forms containing false statements; to meet with a CDC representative,
       a bank officer and a SBA official; and to conceal the acts to further their conspiracy. This
       investigation was based on an anonymous complaint. SBA OIG is conducting this ongoing
       investigation jointly with the DHS.

   •   The SBA received its previously paid guaranty of nearly $317,000 on a loan made to a Missouri
       business. The $405,000 SBA-guaranteed loan had defaulted almost immediately. The OIG
       investigation determined that the corporate president and part owner of the business was an illegal
       alien when this loan was made, having overstayed his 6-month visitor visa since January 1995.
       The corporate president indicated on a form that he was not a citizen of the U.S., but he provided
       no further immigration status information. Internal lender documents showed that the lender was
       aware of this, but apparently never verified his immigration status. Nonetheless, the lender still
       certified that the principals of the business were U.S. citizens or resident aliens and that capable
       and consistent management had been assured. After the OIG contacted the lender, the lender
       informed SBA that it was canceling and refunding the guaranty. Since SBA has suffered no loss,
       the U.S. Attorney declined criminal prosecution. The corporate president remains at large. The
       OIG will provide its findings to the Bureau of Customs and Immigration Enforcement.

Small Business Investment Company (SBIC)-Related Fraud

   •   A former New York, NY, pension plan manager was sentenced to 12 months and 1 day
       incarceration, to be followed by 3 years of supervised release, and was ordered to pay $250,000
       in restitution for his embezzlement of employee benefit plan funds. The investigation revealed
       that he was responsible for recommending investments of pension funds made through various
       venture capital firms, including an SBA-licensed SBIC in receivership. This investigation was
       initiated based on a request by the U.S. Attorney’s Office. The SBA OIG conducted this
       investigation jointly with the Department of Labor OIG.

Fraud in Obtaining Business Loans

   •   A former Norfolk, Virginia, businessman and management corporation director was sentenced to
       6 months in prison, 3 years of subsequent supervised release, and restitution of nearly $674,000 to
       SBA and $1,253,000 to a financial institution for conspiracy to commit wire fraud. He conspired
       to inflate the purchase price of the management corporation’s properties by $1,148,000 to
       fraudulently obtain loan proceeds from two financial institutions. The scheme included having
       the corporation pay $550,000 from loan proceeds to another company he owned for repairs that
       were not to be done. The businessman also conspired to pay $200,000 each to the management
       corporation’s stockholders and to disburse $198,000 of the loan proceeds to purchase another
       motel. He submitted to the two institutions false financial information about management




                                                    5
                          Significant OIG Activities

    corporation shareholders and deceitfully stated that he was giving a combined gift of
    $825,000 to the two shareholders of the management corporation to be used as capital injection,
    knowing that it was not a gift and that it had to be paid back to him from the loan proceeds.
    Consequently, he caused one of the financial institutions to wire nearly $2,300,000 and the other
    to wire nearly $1,000,000 in loan funds to the management corporation.

    In addition, a second business operator and an attorney were indicted in connection with the case.
    The operator had been charged with conspiracy to commit wire fraud and conspiracy to make
    false statements, and the attorney had been charged with conspiracy to make false statements as
    well as making material false statements. This is an on-going joint investigation with the Federal
    Bureau of Investigation (FBI).

•   A Forked River, New Jersey, property owner was indicted for conspiracy and making a material
    false statement relating to a guaranteed loan obtained by an automotive repair business. The
    investigation revealed that the business owner (not the property owner) obtained a $560,000 loan
    requir ing a minimum capital injection of nearly $150,000. The business owner did not do so and
    conspired with the property owner to fraudulently misrepresent the injection. They entered into
    an $80,000 mortgage agreement, which was concealed from the lender, in lieu of the capital
    injection. The business owner defaulted on the entire loan balance, causing SBA to pay the
    guarantee. The OIG conducted this investigation based on a referral from the lender.

•   The SBA Delaware District Counsel denied the application of a business in Bear, Delaware, that
    had applied for a $350,000 guaranteed loan, due to issues of character ineligibility. Based on an
    SBA Delaware District Office referral, the SBA OIG investigation determined that the applicant
    did not fully disclose his criminal history record. Further, the applicant, who was a permanent
    resident but not a U.S. citizen, had advised that he had two Social Security numbers because he
    had entered the U.S. twice and mistakenly completed the paperwork for a Social Security number
    both times. The Social Security Administration could not verify his explanation. Moreover, an
    SBA Office of Financial Assistance character evaluation determined that the applicant could not
    be found “of good character.”

•   The owner of a Laramie, Wyoming, sporting goods store was sentenced to 1 year and 1 day of
    incarceration, 3 years supervised release, and restitution of more than $147,000 after having pled
    guilty to making a false statement to SBA. The investigation found that he submitted two false
    personal financial statements to the bank to obtain two separate SBA loans totaling $250,000. He
    failed to disclose four debts totaling approximately $312,000 and faxed several loan documents to
    further his scheme. The investigation was conducted jointly with the FBI and was based on a
    referral from the SBA Wyoming District Office and the FBI.

•   A San Antonio, Texas, man was sentenced to 19 months in a Federal correctional facility—
    followed by 5 years of supervised release—and was ordered to pay more than $152,000 in
    restitution. He previously pled guilty to bank fraud, after having been indicted for bank fraud,
    conversion of collateral pledged to SBA, and money laundering. He had submitted inflated
    income statements to misrepresent his net worth in connection with a $213,000 guaranteed loan
    to start a Las Vegas, Nevada, ice cream business. He further misrepresented the source of his
    required equity injection by concealing personal loans obtained prior to funding. After his loan



                                                6
                             Significant OIG Activities

       defaulted, he concealed pledged proceeds and converted collateral equipment to impede full
       liquidation. Based on a request from the FBI, the SBA OIG conducted this investigation jointly
       with the Bureau of Alcohol, Tobacco and Firearms, the FBI, and the Internal Revenue Service
       (IRS).

   •   A Dallas, Texas, real estate proprietor pled guilty to bank fraud involving his
       packaging/brokering of 10 guaranteed loans. The investigation revealed that he recruited
       individuals and assisted them with submitting fraudulent documents to obtain loan approval. He
       artificially inflated the borrowers’ checking accounts, submitted fraudulent gift letters
       representing funds for required down payments, used loan proceeds to purchase cashiers checks
       in the names of the borrowers, and employed these checks to fraudulently represent the
       borrowers’ capital injections. In response to a referral from the participating lender, the OIG
       conducted this investigation jointly with the FBI.

   •   A former president of a Bloomington, Illinois, business was sentenced to 16 months incarceration
       and 4 years supervised release, and ordered to pay nearly $218,000 in restitution and a special
       assessment. The business owner previously pled guilty to bank fraud and making false
       statements to a bank. The indictment related to a $375,000 guaranteed loan. The investigation
       revealed that the owner submitted fraudulent invoices to the financial institution in order to
       receive loan disbursements. After the loan closed, he took the $125,000 capital injection out of
       his business and paid off a personal loan that he previously secured to come up with the capital
       injection. This violated the loan agreement, which stated that the capital injection was to be used
       as working capital and to purchase inventory. This investigation was based on a referral from the
       SBA Springfield Branch Office.

   •   The president of an Edgemoor, South Carolina, business provided inaccurate and fraudulent
       information to a CDC. The CDC withdrew its approval of a $688,000 SBA Section 504
       guaranteed loan, resulting in a $516,000 cost avoidance (SBA’s guaranteed debenture portion of
       the loan). The borrower allegedly inflated inventory and claimed assets that did not exist. He
       also allegedly had a criminal record that was not disclosed during the application process. A
       National Crime Information Center criminal history check determined that the president had three
       arrests on his record, although he marked “NO” to all application questions regarding arrests and
       convictions. The CDC withdrew its loan approval based on his false criminal history statements.
       This investigation resulted from an SBA Hotline call.

Fraud after Business Loan Approval

   •   A Lancaster, Pennsylvania, business owner was found guilty of mail fraud and making false
       statements to SBA. The owner obtained a $315,000 SBA-guaranteed loan in 1990, which
       defaulted in 1991. He made offers of compromise from 1992 through 1995, stating that the only
       payment he could make was $60,000, his purported home equity. The scheme’s purpose was to
       induce SBA to accept the $60,000 and forgive the remaining estimated loan balance of $437,000.
       The owner was found guilty of concealing from SBA $551,000 obtained through an unrelated
       stock sale. To accomplish this, he opened bank accounts in his children’s names and prepared




                                                    7
                             Significant OIG Activities

       false stock certificates showing that his children and other entities owned the $551,000 in stock.
       However, the jury found that he had complete control of the stock and monies from its sale,
       purchased a warehouse for $475,000 in 1994, and concealed this from SBA. He was also found
       guilty of submitting false financial information and stock certificates to SBA through the United
       States Postal Service and Federal Express. This case originated from an SBA Philadelphia
       District Office referral.

   •   A Berthoud, Colorado, man was sentenced to 6 months incarceration and 3 years supervised
       release after having pled guilty to bankruptcy fraud and conspiracy. The investigation determined
       that his wife (the business owner) obtained a $100,000 SBA-guaranteed LowDoc loan from a
       financial institution and, shortly thereafter, defaulted and filed for bankruptcy. The couple had
       conspired to hide assets of over $25,000 from the bankruptcy court. The man’s indictment was
       based on information obtained during the investigation of his wife, who had pled guilty to making
       a false statement to a financial institution and to bankruptcy fraud. This investigation was based
       on a referral from the Colorado District Office and was conducted jointly with the FBI.

Disaster Loan Fraud

   •   As part of our proactive review of disaster loans made in response to the September 11th tragedy,
       which was discussed in the previous semiannual report, two New York businessmen were
       convicted for false statements, conspiracy, mail fraud, and wire fraud. After the
       September 11, 2001, terrorist attacks, they applied for and received a $228,200 SBA disaster
       loan. Both stated, in writing and verbally, that their company had been located at 2 World Trade
       Center, that they were subleasing office space from their parent company (which had been
       legitimately located at 2 World Trade Center), and that they lost approximately $94,000 worth of
       equipment, supplies, furniture, and fixtures, as well as the parent company’s financial backing
       and their customer base. The investigation revealed that their business was not located at 2
       World Trade Center on September 11, 2001. Officials of their parent company stated that there
       had been no financial backing, that the two men had been fired, and that they did not own any
       office equipment. In addition to SBA disaster assistance, the men applied for and received aid
       from the New York State Empire State Development Corporation (funded by the Department of
       Housing and Urban Development), the New York City Economic Development Corporation, the
       Federal Emergency Management Agency (FEMA), the American Red Cross, and Safe Horizon,
       Inc. The total fraudulent gain was approximately $350,000. The SBA OIG initiated the case
       based on a Niagara Falls Disaster Office referral.

   •   Three individuals of St. Thomas, U.S. Virgin Islands, were indicted for conspiracy and mail fraud
       involving FEMA and SBA disaster assistance. Two individuals were joint property owners and
       falsely claimed on a FEMA application that this was their primary residence and that it had been
       damaged during 1996’s Hurricane Bertha, even though the property had actually been damaged in
       1995 by Hurricane Marilyn and purchased “as is” just before Hurricane Bertha . The result was a
       new roof costing FEMA $90,000. The third individual, an insurance loss adjuster, prepared the
       owners’ Hurricane Bertha loss report. Based on the report, the owners received $95,000 in
       insurance proceeds. They were also approved for an $80,000 SBA disaster home loan as a result
       of 1998 hurricane damages, although they received only $45,000 because they failed to submit
       certain financial information. Finally, because of the adjuster’s multiple hurricane loss reports,



                                                    8
                                Significant OIG Activities

        the two owners received $90,000 in insurance proceeds. The adjuster’s loss reports for two of the
        hurricanes were almost identical. Based upon a referral from the U.S. Attorney’s Office, the SBA
        OIG conducted this investigation jointly with the DHS OIG.

    •   A resort owner in Talofofo, Guam, pled guilty to making a material false statement. He was
        indicted after submitting a disaster loan application claiming damages to the resort resulting from
        typhoon Pongsana. Although he had been arrested, indicted, and convicted in 1998 for bribery of
        a public official, he stated on his application that he had no prior criminal history. In fact, he had
        attempted to bribe an SBA employee for $5,000 to approve a disaster loan after typhoon Paka in
        1997. The SBA OIG conducted this investigation jointly with the FBI.

Section 8(a) Program Fraud

    •   The president of a defunct Huntingdon Valley, Pennsylvania, construction company was found
        guilty of making a material false statement to SBA, mail fraud, wire fraud, making a false
        statement to a Federally-insured financial institution, and money laundering. He improperly
        transferred $495,000 from his construction business account to his personal offshore account in
        the Bahamas to hide the money from creditors, while closing the business and abandoning its
        contracts and subcontractors. He also falsely represented that he had relocated to Pennsylvania
        along with his SBA Section 8(a) certified business and that he controlled the firm’s day-to-day
        operations. In fact, he did not relocate and had another individual, who previously pled guilty to
        conspiracy and mail fraud, operate the business. The two individuals submitted false financial
        statements to a bonding company to obtain bonding for the construction company’s bids and
        contracts. Because of defaults on contracts, the bonding company lost almost $6 million. The
        president also falsely certified to the Department of Veterans Affairs (VA) that he was paying and
        intended to pay his subcontractors on a timely basis from the proceeds of a VA Medical Center
        contract. The president was also found guilty for submitting false financial statements to a bank
        to support a $300,000 construction company line of credit. Based upon a request from the Naval
        Criminal Investigative Service (NCIS), the SBA OIG conducted this investigation jointly with
        NCIS, VA OIG, and the Defense Criminal Investigative Service.

Identifying Potential Losses
Five OIG Audits Identify Loan Origination Problems on Early Defaulted SBA-Guaranteed Loans

Five audits of early defaulted guaranteed loans resulted in over $2.7 million in questioned costs due to
loan origination problems. The loans were judgmentally selected for review as part of the OIG’s ongoing
program to audit Section 7(a) loans charged off or transferred to liquidation with 24 months of approval,
i.e., early defaults. The SBA is released from liability on a guaranty, in whole or in part, if the lender fails
to comply materially with any provisions of the regulations or loan authorization, or does not make or
handle the loan in a prudent manner.




                                                       9
                               Significant OIG Activities

For example, one audit found that the loan did not meet SBA’s requirements for size, change in
ownership, and repayment ability. After the loan defaulted, the lender agreed to a reduced guaranty
payment. Because the problems identified by the district office and the OIG provide a basis to deny full
liability on the guaranty, the OIG recommended that the district director seek to recover the $376,000
made to honor the reduced guaranty.

Another audit found that the lender made a material error in assessing the borrower’s repayment ability,
resulting in a loan to a borrower having no repayment ability. The borrower defaulted after only one
payment, resulting in an erroneous payment of over $777,000 when SBA purchased the guaranty.
Originally, the borrower had projected gasoline sales of $3.4 million during the first year of operation,
although a third party market analysis found that maximum annual sales could be only about $275,000.
In response to the OIG recommendation, SBA has sought recovery of the payment from the lender.

SBA Purchase Cards: Audit Identifies Internal Control Weaknesses—but No Apparent Fraud

An audit of SBA purchase cards identified five purchases over $2,500 that were split into multiple
charges to keep each charge under the $2,500 micro-purchase threshold, thus circumventing Federal
Acquisition Regulation requirements to set aside acquisitions over $2,500 for competition among small
businesses. Moreover, a number of requisition forms were unsigned by the approving official, more than
half of the cardholder statements examined did not have the approving official’s certification, and four
cardholder accounts remained open after the cardholders left SBA. Nonetheless, the audit found no
fraudulent transactions. The SBA agreed with OIG recommendations, including that the Agency remind
cardholders and approving officials of appropriate procedures for procurements costing over $2,500 and
of possible penalties.

Character Eligibility
The SBA requires applicants for assistance to meet certain character standards before participating in
Agency programs. The OIG’s Office of Security Operations (OSO) is responsible for ensuring that
program participants meet these standards by processing name checks and, where appropriate, fingerprint
checks on applicants. OSO also assists the Agency in making character eligibility determinations through
its on-line connection with the FBI’s Machine Readable Data system by referring applicants who appear
to be ineligible to program officials for adjudication. During this reporting period, OSO made referrals
that resulted in SBA business loan program managers declining 37 applications, and disaster loan
program officials declining 14 applications, totaling $10,103,225 and $421,267 respectively. These
actions made credit available to other applicants without character eligibility issues.

In addition, based on the OIG character eligibility information, officials of the SBA’s Section 8(a) and
surety bond programs declined, respectively, 10 applications for certification and three applications for
guaranty. More than $238 million in loans have been declined during the last 10 years due to character
eligibility.




                                                    10
                              Significant OIG Activities

The OSO also coordinates background investigations for Agency employees required to have security
clearances. During this reporting period, OSO initiated 64 background investigations and issued 19
security clearances. The OSO also reviewed and adjudicated 44 background investigative reports in
accordance with Executive Order 10450 and Office of Management and Budget (OMB) Circular A-130
and coordinated with the SBA’s Office of Disaster Assistance to adjudicate 35 derogatory background
investigative reports forwarded for review and appropriate action.

OIG Fraud Awareness Briefings
During this reporting period, the OIG conducted 3 briefings for more than 31 SBA employees, lenders,
and other resource partners as part of its mission to heighten awareness of waste, fraud, and abuse.

Goal 2: Improve the Se c urit y Ove r and t he Ac c urac y of SB A
Ac c ount ing and Ma nage me nt Info rmatio n
The SBA depends on a complex information technology (IT) environment, which includes 38 mission
critical systems running on a mix of legacy mainframe, client-server, and minicomputers. The SBA has
difficulty producing reliable and timely financial and management information to support its operations,
primarily because of reliance on outdated IT systems that are not integrated. The SBA is developing a
new Disaster Credit Management system to modernize and improve its disaster loan-making activities.
The SBA is also implementing a Loan Monitoring System to monitor its business loan portfolio. These
efforts are critical to the SBA’s successful future operations. However, these efforts do not impact SBA’s
Loan Accounting System, which is sorely outdated and in need of replacement.

The Chief Financial Officers Act of 1990 requires each Federal agency to have annual audited financial
statements. One of the OMB’s key initiatives is to have agencies improve their financial management
activities, including providing financial statements and financial performance information in a timelier
manner. Because of the lack of integrated financial and accounting systems, SBA has major challenges
and uncertainties surrounding its ability to produce Fiscal Year (FY) 2004 financial statements by the
accelerated date of November 15, 2004. For the past few years, and again for the FY 2003 financial
statements, the auditors have been critical of the Agency’s reporting process and its ability to provide
accurate, complete, and reliable financial data.

In FY 2003, SBA undertook a major effort in developing new credit subsidy models for its disaster
assistance loan program and the secondary market guaranty program and made significant changes to two
other credit subsidy models. This should result in more accurate financial statement estimates for SBA’s
credit programs.

Audit of SBA’s Financial Statements Disclaims Opinions and Discloses Material Weaknesses

The OIG issued Cotton and Company’s Audit Report for SBA’s FY 2003 Financial Statements, which
disclaimed an opinion on both the FY 2003 financial statements and the restated FY 2002 financial
statements. The scope of the examination was limited because SBA was late in completing development
and testing of certain credit program subsidy models, its credit program subsidy re-estimates, and its




                                                    11
                              Significant OIG Activities

financial statements. One example of a major change in subsidy re-estimates is in the SBIC participating
securities program, where SBA reported an estimated loss of more than $1.8 billion in its credit subsidy
re-estimates. Consequently, the auditors were unable to apply all necessary auditing procedures or
dispose of reservations identified during their work. This prevented them from expressing an opinion on
the financial statements.

Reportable conditions included two material weaknesses: (1) credit reform controls and (2) financial
management and reporting controls. The remaining reportable condition related to the need for
improvement in SBA's information system controls, particularly in addressing previously identified
weaknesses and allocating sufficient resources to support the Office of the Chief Information Officer’s
(OCIO) security programs.

Moreover, the Agency was not in substantial compliance with the Federal Financial Management
Improvement Act because of noncompliance with Federal financial systems requirements, Federal
accounting standards, and the United States Standard General Ledger at the transaction level. Auditors
also noted instances of noncomplia nce with the Prompt Pay Act and limitations on their examinatio n’s
scope, which prevented the completion of testing of SBA’s compliance with the Antideficiency Act.

The Chief Financial Officer (CFO) generally agreed with the audit’s findings and recommendations.
Acknowledging that SBA did not meet key milestone dates for some credit programs’ budgeting and
accounting work and for preparing financial statements, he accepted responsibility for not providing
sufficient time for the auditors to complete their work. The most important recommendations called for
the CFO to (1) improve controls over SBA’s credit modeling processes, including documentation, data
analysis, and reconciliation procedures; (2) improve controls and procedures surrounding SBA’s financial
reporting process; (3) develop and enhance procedures for funds control management, Antideficiency Act
compliance, and Prompt Pay Act compliance; and (4) direct a coordinated effort to investigate and
explain unusual subsidy balances.

Other Financial Weaknesses

The OIG issued a management letter communicating to SBA management “non-reportable conditions”
that came to Cotton & Company’s attention during their audit of FY 2003 financial statements. The
conditions, which were reported last year, included problems with foreclosed property records and
valuation, the general ledger, administrative costs, and intra-governmental reconciliations.

The management letter also noted new weaknesses, such as in the areas of Disaster Area Office travel
authorizations , loan servicing center shipping costs, valuation of interest receivable, surety bond
guarantee liability estimate documentation, completeness of performance data reporting, recording of
Master Reserve Fund cash held outside of Treasury, and inappropriate augmentation of appropr iations
involving methods of payment of contractors. The CFO generally agreed with the auditors’ findings and
recommendations.




                                                    12
                                Significant OIG Activities

SBA Information Technology Enterprise Architecture Not Adequately Enforced for Disaster
Program System

Enterprise architecture establishes an Agency-wide roadmap for unifying what otherwise would be
dissimilar and inefficient information systems. An OIG audit found that SBA did not adequately enforce
its information technology enterprise architecture during the initial development phase of the Disaster
Credit Management System project. The OIG recommended that the Chief Information Officer (CIO)
perform reviews for large-scale development projects to ensure such enforcement occurs and formulate a
related strategy for more proactive oversight of such projects. The CIO agreed with both
recommendations.

Goal 3: As s ist SB A in Improv ing its Sma ll B usine ss De ve lopme nt
P rogra ms a nd Gove rnme nt Cont rac ting
The SBA provides assistance to existing and prospective small businesses through a variety of counseling
and training services offered by Agency partner organizations. Among these are Small Business
Development Centers (SBDCs), the Service Corps of Retired Executives (SCORE), and Women’s
Business Centers (WBCs). The SBA also manages the Section 8(a) Business Development Program,
which was established to provide business development assistance to small businesses owned by socially
and economically disadvantaged individuals and to help them access the $200 billion Federal
procurement market. Through its broader Government contracting program, the SBA works with Federal
agencies to establish and implement procurement goals for contracting with small, small-disadvantaged,
women-owned, service-disabled veteran-owned, and historically underutilized business zone (HUBZone)
small businesses. These programs demand effective and efficient management, outreach, and service
delivery. Determining whether business development and Government contracting programs meet these
demands depends on reliable internal and external data for effective monitoring and oversight.

Inappropriate Cosponsorship Activities in Two Dis trict Offices

The Small Business Act gives SBA statutory authority to sponsor a wide variety of training and
counseling programs to assist small businesses. Section 8(b)(1)(a) of the Act authorizes SBA to plan and
conduct activities jointly with public or private entities. These activities are referred to as cosponsorships,
and the Act requires that they be evidenced by a written agreement between the parties.

    •   An OIG audit on nine cosponsored events in the Los Angeles District Office concluded that the
        events were not planned and conducted in accordance with Federal laws and SBA policies and
        procedures. Cosponsorships are to be planned so they do not generate a profit. If profits occur,
        they should be applied to similar events. The cosponsors inappropriately accumulated $248,000
        in profits, used $121,000 for activities unrelated to the events, and received $7,500 from
        prohibited sources. In addition, district office employees solicited gift funds totaling $122,500
        from donors whose participation in cosponsored activity could result in a conflict of interest.
        Significant recommendations called for the Associate Administrator for Field Operations to
        (1) follow Federal law and SBA polic ies and procedures in conducting cosponsored events and in
        soliciting and accepting gifts for the Agency and (2) deposit all funds resulting from employee
        solicitations according to Agency Standard Operating Procedures (SOPs), with excess gift



                                                      13
                               Significant OIG Activities

        funds to be deposited in the Business Assistance Trust (BAT) Fund or dispersed per the donor’s
        instructions. Management agreed with the recommendations.

    •   Another audit—this time in the Puerto Rico and Virgin Islands District Office—determined that
        the district’s cosponsored activities and its Business Resource Center (BRC) did not comply with
        SBA policies and procedures and Federal law. Problems occurred in the preparation and
        approval of cosponsorship agreements, gift fund solicitation and disposition, the charging of fees,
        the use of cosponsor contributions, the planned use of Economy Act funds, procurement
        activities, BRC counseling services, recordkeeping, reporting, and asset accountability. The
        problems occurred because district office personnel did not follow existing guidance, regional
        and headquarters personnel did not provide sufficient oversight, and formal operating procedures
        did not thoroughly address cosponsorship operations and funds management. Although SBA
        officials agreed with some OIG recommendations , most recommendations will be handled during
        the audit resolution process. Significant recommendations called for the Associate Administrator
        for Field Operations and the Associate Administrator for Strategic Alliances to (1) remind district
        offices of the requirement to deposit all gift funds into the BAT Fund; (2) establish controls to
        prevent the solicitation and acceptance of funds from prohibited sources; and (3) ensure that
        sources requiring a conflict of interest case-by-case determination are submitted to the
        appropriate SBA official. Management has not formally responded to the recommendations.

SBA Circumvented Small Business Set-Aside Procurement Rules

The Asset Sale Program was initiated to sell SBA’s owned loan portfolio. For each sale, the Agency
procured a contractor to review loan portfolios and provide accurate information to potential investors.
An OIG audit found that procurement practices used to obtain such contractors’ services, which were
“set-aside” for small businesses, did not benefit small businesses, as provided for in regulations. This is
significant because SBA develops the regulations to promote and protect small businesses, and SBA
circumvented these regulations.

SBA’s use of the General Services Administration’s (GSA) Federal Supply Schedule did not ensure that
the Agency received the best value in terms of cost and quality of services. SBA also did not ensure that
its small business regulations on subcontracting were complied with, including the rule requiring
contractors to perform at least 50 percent of the personnel costs of the procurement. Of $147 million in
revenue received by contractors, over $81 million (55.5%) went to subcontractors, imaging specialists,
third party report vendors, database contractors, and independent contractors, including potentially “other
than small” businesses.

The OIG made 30 recommendations and questioned nearly $1.7 million in contractors’ overcharges. The
report’s recommendations included developing corrective procedures for reviewing procurement
proposals, requiring contractors classified as small businesses to certify their size, and ensuring written
acquisition plans are prepared for all future asset sales. SBA officials agreed with some recommendations
and disagreed with others.




                                                     14
                               Significant OIG Activities

Section 8(a) Program’s Primary Database is Ineffective

An OIG inspection found that the Section 8(a) Business Development (BD) Program’s primary database,
SACS/MEDCOR, has serious problems, including (1) missing, out-of-date, or inaccurate data; (2) lack of
information needed for reporting to Congress; (3) poor reporting capability; and (4) an inability to be used
to manage the 8(a) BD Program. In short, SACS/MEDCOR is an ineffective and inefficient program
management tool. To effectively manage the 8(a) Program and assess its effectiveness, SBA needs
quality data and a system that will (1) make data easily available; (2) track and evaluate firms’ progress,
thereby supporting management reporting and analysis; and (3) help disseminate SBA products to
stakeholders.

The report recommended that the Office of Government Contracting and Business Development
(GC&BD) analyze its business processes to determine specific programmatic data needs and that
GC&BD, in conjunction with OCIO, develop a management information system that will support the
program, provide useful information, and enable the Agency to measure program results. GC&BD
concurred with the OIG's findings and recommendations and is taking steps to implement the
recommendations.

Goal 4: As s ist SB A Ma nage me nt in Ide nt if ying and Re solv ing
P e rsiste nt a nd E me rg ing Manage me nt Is sue s
Top Management Challenges

During this reporting period, the OIG issued its FY 2004 report on the most serious Management
Challenges facing the SBA, as required by the Reports Consolidation Act of 2000. The report provides
the OIG’s assessment of Agency programs or activities that pose significant risks, including those that are
particularly vulnerable to fraud, waste, error, or mismanagement. For each management challenge, we
provided recommended remedial actions along with our assessment of Agency progress on each item.

The SBA’s most serious Management Challenges in FY 2004 are as follows:

    •   SBA needs to improve its managing for results processes and performance data.
    •   SBA faces significant challenges in financial management and reporting which affects its ability
        to provide reliable, timely and accurate financial information.
    •   Information systems security needs improvement.
    •   Maximizing program performance requires that SBA fully develop, communicate and implement
        a human capital management/transformation strategy.
    •   SBA needs better controls over the business loan purchase process.
    •   SBA needs to continue improving lender/participant oversight.
    •   The Section 8(a) Business Development program needs to be modified so that more participating
        companies receive access to business development and standards for determining economic
        disadvantage are clear and objective, so that more eligible companies receive 8(a) contracts.
    •   SBA needs to clarify its rules intended to deter Section 8(a) Business Development participants
        from passing through procurement activity to non-Section 8(a) Business Development firms.
    •   Preventing loan agent fraud requires additional measures.



                                                    15
                              Significant OIG Activities

    •   SBA needs to update its system of directives to provide proper guidance and control over its
        operations.

For more information on the OIG’s assessment of the SBA’s FY 2004 Management Challenges, please
review the report at http://www.sba.gov/ig/challenges.html.

OIG Inspection Identifies Need for FAST Program Core Performance Measures

The purpose of SBA’s Federal and State Technology Partnership (FAST) program is to strengthen the
technological competitiveness of small business concerns in the States by ensuring their participation in
Federal research and development. A statutorily mandated inspection report assessed the extent to whic h
program recipients have developed and utilized effective performance indicators to measure the results of
their activities. It also discussed overall program management and effectiveness. The OIG recommended
that SBA refine its guidance to program participants on developing performance measures and take the
lead to establish a core set of measures. Moreover, the OIG recommended that SBA vigorously enforce
its reporting requirements and take action against grantees who do not comply. The Agency agreed with
all recommendations.

Other Significant Management Issues
Increase in Overdue Management Decisions

Management decisions on OIG recommendations may take several forms. Program officials may agree to
a recommendation as presented by the OIG, they may seek to negotiate a compromise agreement with the
OIG, or they may disagree. The IG Act requires that Federal agencies make management decisions on all
findings and recommendations within a maximum of 6 months of report issuance. During this reporting
period, there has been a significant increase in the number of overdue management decisions—i.e.,
decisions which are not made within 6 months of report publication. As of March 31, 2004, management
decisions on 21 OIG reports were overdue (See Appendix V). This is the highest number of overdue
management decisions for any single reporting period since March 1999. Moreover, in the 8 years prior
to FY 2003, the average number of overdue management decisions was only five per reporting period.
We are concerned that, while we continue to work with the Agency on these issues, they remain
unresolved.




                                                   16
                                                 Statistical Highlights

                                   FY 2004 6-Month Productivity Statistics
                                   October 1, 2003, through March 31, 2004

Office-wide Dollar Accomplishments                                                                                              Totals

A. Potential Investigative Recoveries and Fines ....................................................$6,135,984.00
B. Loans Not Made as Result of Investigations and Name Checks .......................$13,536,384.00
C. Disallowed Costs Agreed to by Management ....................................................$1,011,699.90
D. Recommendations that Funds Be Put to Better
        Use Agreed to by Management ...................................................................$535,470.18

Total . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $21,219,538.08

Efficiency and Effectiveness Activities

A. Reports Issued …………………………………………………………………………….......19
B. Recommendations Issued ……………………………………………………………………121
C. Dollar Value of Costs Questioned ………………………………………………..$4,609,872.73
D. Dollar Value of Recommendations that Funds
        Be Put to Better Use ...................................................................................... $7,000.00
E. Collections as a Result of Questioned Costs .....................................................$1,398,691.87

Follow-up Activities

A. Recommendations Closed ................................................................................................ 50
B. Disallowed Costs Agreed to by Management ....................................................$1,011,699.90
C. Dollar Value of Recommendations that Funds Be Put to Better Use
        Agreed to by Management .........................................................................$535,470.18
D. Unresolved Recommendations ....................................................................................... 193


Legislation/Regulations/Standard Operating Procedures (SOPs)/Other Reviews

A. Legislation Reviewed ...................................................................................................... 42
B. Regulations Reviewed ..................................................................................................... 11
C. Standard Operating Procedures Reviewed ......................................................................... 10
D. Other Issuances Reviewed* .................................................................................................9

* This category includes policy notices, procedural notices, Administrator’s action memoranda, and other
communications, which frequently involve the implementation of new programs and policies.




                                                                          17
                                               Statistical Highlights

Summary of Indictments and Convictions

A. Indictments from OIG Cases ……………………………………………………………….…17
B. Convictions from OIG Cases ……………………………………………………………….…13

Summary of Recoveries and Management Avoidances

A. Potential Recoveries and Fines as a Result of
        OIG Investigations .................................................................................$ 6,135,984.00
B. Loans/Contracts Not Approved as a Result of OIG Investigations .....................$ 3,011,892.00
C. Loans/Contracts Not Approved as a Result of the Name
        Check Program .....................................................................................$10,524,492.00

Total ………………………………………………………………………………..$19,672,368.00

SBA Personnel Actions Taken as a Result of Investigations

A. Dismissals ........................................................................................................................0
B. Resignations/Retirements ...................................................................................................1
C. Suspensions . .....................................................................................................................0
D. Reprimands .......................................................................................................................0

Program Actions Taken as a Result of Investigations

A. Suspensions ......................................................................................................................0
B. Debarments .......................................................................................................................0
C. Removals from Program ....................................................................................................0
D. Other Program Actions ......................................................................................................0

Summary of OIG Hotline Operation

A. Total Fraud Line Calls/Letters........................................................................................196*
B. Total Calls/Letters Referred to Investigations Division ....................................................... 19
C. Total Calls/Letters Referred to SBA or Other Federal Agencies........................................... 63
D. Total Calls/Letters Needing No Action ........................................................................... 114

*Total no longer includes hang- ups.




                                                                       18
                                                APPENDIX I
                                             OIG Reports Issued
                                   October 1, 2003, through March 31, 2004
                       Title                           Report       Issue      Questioned       Funds for
                                                       Number       Date         Costs          Better Use
Capital Access
Audit of an Early Defaulted Loan                          4-01      11/10/03      $692,250.00
Audit of an Early Defaulted Loan                          4-02      11/24/03      $376,106.00
Audit of an SBA Guarantied Loan                           4-04      12/23/03      $105,000.00
Audit of a SBA Guaranteed Loan                            4-06       1/8/04       $777,516.00
Audit of an Early Defaulted Loan                          4-13       3/2/04       $767,049.00
Program Subtotal                                       5 Reports                $2,717,921.00             $0
Agency Management
Advisory Memorandum Report on SBA’s Federal               4-08      1/23/04
Intragovernmental Activity and Balances Data
Review of SBA Purchase Cards                              4-09      1/26/04
Audit of SBA’s FY 2003 Financial Statements               4-10      1/30/04
Advisory Memorandum Report – Agreed-upon                  4-11       2/3/04
Procedures Report on SBA’s Federal Agencies’
Centralized Trial-Balance System (FACTS) Data
Enforcement of SBA’s Information Technology               4-14       3/2/04
Enterprise Architecture During the Development of
the Disaster Credit Management System
Audit of SBA’s Administration of the Procurement          4-16      3/17/04     $1,690,838.00
Activities of Asset Sale Due Diligence Contracts and
Task Orders
Audit of SBA’s FY 2003 Financial Statements –             4-17      3/23/04
Management Letter
Management Challenges Report                                         1/04
Program Subtotal                                       8 Reports                $1,690,838.00             $0
Government Contracting and
Business Development
Cosponsorship Activities – Los Angeles District           4-03      12/17/03
 Office
Audit of Puerto Rico & US Virgin Island District          4-07      1/20/04      $201,113.73        $7,000.00
Office Cosponsored and SBA-Sponsored Activities
Independent Accountants’ Report on the Performance        4-12      2/20/04
Audit of Farmington Casualty Company
SBA’s Federal and State Technology Partnership            4-05      12/30/03
(FAST) Program (Inspection)
SACS/MEDCOR: Ineffective and Inefficient                  4-15       3/9/04
(Inspection)
Program Subtotal                                       4 Reports                 $201,113.73        $7,000.00

TOTALS (all programs)                                  19 Reports               $4,609,872.73       $7,000.00




                                                         19
                                                    APPENDIX II
                                         OIG Reports with Questioned Costs
                                       October 1, 2003, through March 31, 2004

                                                               Reports         Recs*            Questioned               Unsupported
                                                                                                 Costs***                 Costs***
A.      For which no management decision
        had been made by
        September 30, 2003                                          6             15        $3,623,654.27**            $2,209,718.90**
B.
        Which were issued during the period                         7             7              $4,609,872.73                $376,106.00

        Subtotals (A + B)                                          13             22             $8,233,527.00             $2,585,824.90
C.      For which a management decision
        was made during the reporting period                        5             5              $1,894,215.90                  $28,593.90
        (i)      Disallowed costs                                   3             3              $1,011,699.90                  $28,593.90
        (ii) Costs not disallowed                                   2             2                $882,516.00                             $0
D.      For which no management decision
        had been made by March 31, 2004                             8             17             $6,339,311.10             $2,557,231.00
* Recommendations; reports may have more than one recommendation.
** The beginning balance is different from the ending of the last SAR because several management decisions for report 3-14 were not reported
   even though they had been signed before 9/30/03.
*** Questioned costs are those which are found to be improper, whereas unsupported costs may be proper but lack documentation.


                                          APPENDIX III
                 OIG Reports with Recommendations that Funds Be Put to Better Use
                             October 1, 2003, through March 31, 2004

                                                                        Reports         Recs*              Recommended Funds
                                                                                                              For Better Use
  A.      For which no management decision had
          been made by September 30, 2003                                  5                5                               $1,361,720.18
  B.
          Which were issued during the period                              1                1                                     $7,000.00
          Subtotals (A + B)                                                6                6                               $1,368,720.18
  C.      For which a management decision was
          made during the reporting period                                 2                2                                  $535,470.18
          (i)    Recommendatio ns agreed to by
                 SBA management                                            2                2                                  $535,470.18
          (ii)       Recommendations not agreed to
                     by SBA management                                     0                0                                                  $0
  D.      For which no management decision had
          been made by March 31, 2004                                      4                4                                  $833,250.00
* Recommendations; reports may have more than one recommendation.




                                                                     20
                                           APPENDIX IV
                          OIG Reports with Non-Monetary Recommendations
                              October 1, 2003, through March 31, 2004

                                                                               Reports           Recommendations
  A.    For which no management decision had been made by
        September 30, 2003                                                        *28                     *101
  B.    Which were issued during the period                                         9                     113
        Subtotals (A + B)
                                                                                   37                     214
  C.    For which a management decision was made (for at
        least one recommendation in the report) during the
        reporting period                                                           15                      42
  D.    For which no management decision (for at least one
        recommendation in the report) had been made by
        March 31, 2004                                                             27                     172
* The beginning balance is different from the ending of the last SAR because total number of reports and recommendations did
not include a Program Vulnerability Memorandum (PVM). It is also different because one recommendation was listed more than
once.




                                                            21
                                       APPENDIX V
                         OIG Reports From Prior Semiannual Periods
                            with Overdue Management Decisions
                                   as of March 31, 2004

                 Title                    Number Issued                        Status
                                                          One outstanding recommendation is to be
PLP Oversight Process                      1-19   9/27/01 submitted to the resolution process.
                                                          Mgmt states they have satisfied all open
                                                          recommendations. Evidence of their actions
                                                          should have been submitted to the OIG by
Borrowers with Prior Defaulted Loans       2-19   5/28/02 10/31/03.
Georgia District Office Sponsorship                       Management proposals were to have been
Activities                                 2-25   8/26/02 provided to the OIG for evaluation by 10/24/03.
Internal Control Over Colson Services                     Awaiting management decision on outstanding
Corporation’s Contract as Central                         recommendations; expected by 7/31/04.
Servicing Agent for SBA’s Certified
Development Company Loan Program           2-29   9/16/02
                                                          Appealing District Office decision to the Office
SBA-Guaranteed Loan to Earth Treasures,                   of Financial Assistance. General Counsel is
Inc.                                       2-30   9/24/02 still reviewing the recommendation.
Impact of Loan Splitting on Borrowers                     Awaiting management decision on outstanding
and SBA                                    2-31   9/30/02 recommendations.
Eligibility of 15 HUBZone Companies                       Awaiting management decision on outstanding
and a Review of the HUBZone                               recommendation; expected by 7/31/04.
Empowerment Contracting Program’s
Internal Controls                          3-05   1/22/03
SBA’s Oversight of the Fiscal Transfer                    Awaiting management decision on outstanding
Agent for the 7(a) Loan Program            3-08   1/30/03 recommendations; expected by 5/31/04.
Program Vulnerability Memorandum                          Awaiting management decisions on outstanding
(PVM) – Pro-Net Registrant Data                           recommendations.
Integrity Warnings and Certification       3-09   2/7/03
                                                          Awaiting management decision on outstanding
TEP Consulting Inc.                        3-14   3/14/03 recommendations; expected by 4/30/04.
                                                          Awaiting management decision on outstanding
Guaranty Purchase Process                  3-15   3/17/03 recommendations.
                                                          Awaiting management decision on outstanding
Asset Sales Program                        3-19   3/31/03 recommendations.
SBA’s Information System Controls for                     Awaiting management decisions on outstanding
FY 2002                                    3-20   3/31/03 recommendations; expected by 5/31/04.
Equity Injection in the SBA 7(a) Loan                     Three recommendations are in management
Guaranty Program                           3-21   3/31/03 resolution.
The Microloan Program: Moving Toward                      Awaiting management decisions on two
Performance Management (Inspection)        3-26   5/13/03 outstanding recommendations.
SBA’s Acquisition, Development and                        Awaiting management decision on outstanding
Implementation of the Joint Accounting                    recommendations; expected by 7/31/04.
and Administrative Management System       3-32   6/20/03




                                                  22
                                        APPENDIX V
                          OIG Reports From Prior Semiannual Periods
                             with Overdue Management Decisions
                                    as of March 31, 2004

                  Title                    Number Issued                       Status
                                                             Awaiting management decision on outstanding
SBIC Oversight                              3-33    7/1/03   recommendations.
Audit of the National Women’s Advisory                       Awaiting management decision on outstanding
Council                                     3-35   7/28/03   recommendations; expected by 7/31/04.
                                                             Awaiting management decision on outstanding
Audit of an Early Defaulted Loan            3-41   9/29/03   recommendation.
                                                             Awaiting management decision on outstanding
Travel Card and Purchase Card Controls      3-42   9/29/03   recommendations; expected by 7/31/04.
Insufficient Proof of Citizenship Status                     Awaiting management decision on one
for SBA Loans (Inspection)                  3-43   9/30/03   outstanding recommendation.




                                                   23
                                       APPENDIX VI
                     OIG Reports Without Final Action as of March 31, 2004

Report                                   Title                         Date       Date of     Final
Number                                                                Issued    Management   Action
                                                                                 Decision    Target
43H006021   8(a) Continuing Eligibility Reviews                       9/30/94     10/30/94   10/30/02
87H002017   NOAA Computer Workstation Contracts                       6/19/98      3/1/99    3/31/03
  9-23      Survey of Electronic Records Management                   9/15/99     11/30/99   4/15/03
  0-14      7(a) Service Fee Collections                              3/30/00     8/22/00    9/30/03
  0-19      SDB Certification Program Obligations and Expenditures    6/30/00     3/30/01    9/30/02
  0-25      GPRA for the SBIC Program                                 9/7/00      12/27/00   3/31/04
  0-28      Rhode Island District Advisory Council                    9/29/00       ***        **
  0-29      MBELDEF                                                   9/29/00       ***      1/31/03
  0-30      SBA’s Administration of MBELEDF Cosponsorship             9/30/00     3/26/01      **
  0-31      Boscart Construction, Inc.                                9/30/00       ***        **
  1-01      GPRA for the 7(a) Business Loan Program                   12/4/00       ***        **
  1-09      PDD 63                                                    3/26/01     9/27/01    9/15/03
  1-11      GPRA for the MSB&COD Program                              3/27/01     9/28/01    7/31/03
  1-12      SBA’s Information Systems Controls – FY 2000              3/27/01       ***        **
  1-16      SBA’s Follow-up on SBLC Examinations                      8/17/01     9/25/01    12/31/03
  1-19      PLP Oversight Process                                     9/27/01     8/27/02    12/31/03
  1-20      Agreed-Upon Procedures Report on Sensitive Payments       9/28/01     12/18/01   11/30/03
  A1-06     Evaluation of SBA’s Computer Security Program             9/28/01       ***        **
  2-12      Improvements in the SBLC Oversight Process                3/20/02     8/27/02      **
  2-17      SBA’s FY 2001 Financial Statements – Management Letter    4/12/02       ***        **
  2-18      SBA’s Information Systems Controls FY 2001                5/6/02        ***        **
  2-19      Borrowers with Prior Defaulted Loans                      5/28/02     3/19/03    1/15/04
  2-22      Travel of SBA’s Former Region VI Regional Administrator   8/7/02      9/26/02      **
  2-27      SBA’s Experience with Defaulted Franchise Loans           9/16/02     12/19/02   6/30/03
  2-29      Internal Control over Colson CSA for SBA’s CDC Program    9/16/02     12/12/02   12/15/03
  2-33      7(j) Management & Technical Assistance Program            9/30/02     12/10/02     **
  2-34      SBA’s Controls over the Access, Disclosure and Use of     9/30/02     7/23/03    9/15/03
            Social Security Numbers by Third Parties
  3-02      Performance Measurement in the Federal and State          1/3/003     9/30/03    12/1/03
            Technology (FAST) Program
  3-03      SBA’s Implementation of its CIPP                          1/10/03      2/4/03    7/15/03




                                                       24
                                         APPENDIX VI
                       OIG Reports Without Final Action as of March 31, 2004

Report                                    Title                                   Date          Date of              Final
Number                                                                           Issued       Management            Action
                                                                                               Decision             Target
 3-05        Eligibility of 15 HUBZone Companies and a Review of the             1/22/03           7/10/03          7/21/03
             HUBZone Empowerment Program’s Internal Controls
 3-06        SBA’s FY 2002 Financial Statements                                  1/30/03           3/28/03          11/15/03
 3-08        SBA’s Oversight of the FTA for the 7(a) Loan Program                1/30/03            ***                   **
 3-09        Program Vulnerability Memorandum – Pro-Net Registrant               2/7/03             ***                   **
             Data Integrity Warnings and Certification
 3-10        504 Loan Program Oversight                                          2/6/03            10/1/03          12/31/03
 3-13        Economic Injury Disaster Loans                                      3/14/03            ***                   **
 3-14        TEP Consulting, Inc.                                                3/14/03           4/10/03          6/30/03
 3-15        Audit of Guaranty Purchase Process                                  3/17/03           11/6/03          12/31/03
 3-18        Grants to the Texas Center for Women’s Business                     3/20/03           6/04/03          10/15/03
             Enterprise
 3-20        SBA’s Information System controls for FY 2002                       3/31/03            ***                   **
 3-22        OVBD’s Monitoring of Cooperative Agreement                          4/2/03            5/8/03           10/15/03
 3-23        Service Corps of Retired Executives Program                         4/11/03           9/30/03          6/30/04
 3-24        Audit of SBA’s FY 2002 Financial Statements                         4/14/03            ***                   **
             Management Letter
 3-26        The Microloan Program: Moving Toward Performance                    5/13/03            ***                   **
             Management (Inspection)
 3-29        SBA’s Acquisition, Development and Implementation of                6/30/03            ***                   **
             the Joint Accounting and Administrative Management
             System
 3-32        SBA’s Acquisition, Development and Implementation of                6/30/03           9/11/03          9/30/04
             the Joint Accounting and Administrative Management
             System
 3-33        SBIC Oversight                                                      7/1/03            10/6/03                **
 3-34        SBA’s Compliance with JFMIP Property Management                     7/23/03           9/11/03                **
             System Requirements
 3-35        National Women’s Business Council                                   7/28/03            ***                   **
 3-36        Audit of an Early Defaulted Loan                                    8/19/03           10/1/03          9/30/04
 3-39        Monitoring of SBA’s Implementation of the Disaster Credit           9/24/03          12/11/03                **
             Management System
 4-03        Cosponsorship Activities – Los Angeles District Office             12/17/03           1/15/04          3/20/04
** Target dates vary with different recommendations. *** Management decision dates vary with different recommendations.




                                                            25
                                            APPENDIX VII
                                   6-Month Legal Actions Summary
                                October 1, 2003, through March 31, 2004

State   Program                   Alleged Violation(s) Prosecuted                             Legal Action          Investigated
                                                                                                                    Jointly With
CO        BL      Business owner obtained a $100,000 LowDoc loan, defaulted shortly        Business owner and       FBI
                  after, and filed for bankruptcy. She and her husband conspired to        her husband pled
                  hide assets from the bankruptcy court.*                                  guilty. He was
                                                                                           sentenced to 6
                                                                                           months incarceration,
                                                                                           3 years probation and
                                                                                           a $200 assessment
                                                                                           fee
 DE       BL      Applicant did not fully disclose his criminal history in connection      Application denied       None
                  with a $350,000 SBA guaranteed loan application.*                        due to character
                                                                                           ineligibility
GU        DL      Resort owner failed to disclose his criminal history on his disaster     Resort owner pled        FBI
                  loan application, when he had previously been convicted of bribery       guilty
                  of a public official.*
 IL       BL      Businessman claimed he was a U.S. citizen, presented a counterfeit       Both were indicted       INS
                  certificate of naturalization and offered a $5,000 bribe to the SBA      for conspiracy
                  official to close the $594,000 guaranteed SBA loan. Wife conspired
                  to falsify documents.*
 IL       BL      Business owner submitted fraudulent invoices to lender and paid off      Business owner
                  a personal loan with a business capital injection in connection with a   received 16 months
                  $375,000 guaranteed loan.*                                               incarceration, 4 years
                                                                                           supervised release,
                                                                                           and to pay $218,000
MO        BL      The corporate president indicated on a form that he was not a U.S.       Lender canceled and      SSA-OIG
                  citizen, which the lender was aware of, but never verified his           refunded the
                  immigration status and certified the business principals’ citizenship    guaranty of nearly
                  status as that of U.S. citizen or resident alien.*                       $317,000 to SBA
MO        BL      President and secretary falsified the required $75,000 equity            Company president        None
                  injection in connection with a $311,000 SBA guaranteed loan.             indicted, and
                  Additionally, the owners conspired to submit false application forms.    company secretary
                                                                                           pled guilty to an
                                                                                           Information
 NJ       BL      Businessman conspired with borrower to misrepresent the capital          Businessman indicted     None
                  injection, by concealing an $80,000 mortgage agreement until
                  months after the loan was disbursed.*
 NJ       BL      Businessman submitted a false invoice representing the purchase of       Businessman indicted     USPI
                  equipment and failed to pay equipment leases with loan funds in
                  connection with a $350,000 SBA guaranteed loan.




                                                            26
                                            APPENDIX VII
                                   6-Month Legal Actions Summary
                                October 1, 2003, through March 31, 2004

State   Program                   Alleged Violation(s) Prosecuted                             Legal Action          Investigated
                                                                                                                    Jointly With
 NY       DL      Two businessmen received a $228,200 disaster loan after they             Businessmen found        None
                  falsely claimed they were located in 2 World Trade Center and lost       guilty by jury
                  M&E, and F&F, and financial backing from their parent company as
                  a result of the 9/11 disaster. *
 NY       IC      Pension plan manager misused company credit cards, double and            Pension plan             DOL-OIG
                  triple billed for expenses and used the monies for personal expenses.    manager received 12
                  *                                                                        months incarceration,
                                                                                           3 years probation,
                                                                                           and an order to pay
                                                                                           $250,000 in
                                                                                           restitution
 OR       BL      Former loan broker submitted loan applications containing false          Former loan broker       FBI
                  client information and forged signatures, opened bank accounts in        indicted
                  clients names to which loan funds were deposited, and used the
                  funds for personal benefit.
 PA       GC      Company president falsely represented in his 8(a) annual update that     Company president        NCIS, VA-
                  his business relocated to PA. Additionally, he created false financial   found guilty by jury     OIG, DCIS
                  statements to obtain bonding for the company’s bids and contracts,
                  and to support a line of credit. *
 PA       BL      Business owner attempted to conceal $551,000 from a stock sale in        Owner found guilty       None
                  order to induce SBA to accept a $60,000 offer in compromise in           by jury
                  connection with a $315,000 SBA guaranteed loan which he
                  defaulted on. *
 PR       BL      Business owner submitted a false real estate purchase agreement and      Business owner paid      FBI, USPI
                  paid an individual to pose as the president of his company in            a total of $601,612 as
                  connection with a $946,000 Section 504 loan.                             part of a pre-trial
                                                                                           diversion agreement
 SC       BL      Company president inflated inventory and claimed assets that did         CDC withdrew its         None
                  not exist and did not disclose his criminal history on SBA Form 912,     approval for
                  in connection with a $688,000 SBA guaranteed loan. *                     company president’s
                                                                                           loan resulting in a
                                                                                           cost avoidance of
                                                                                           $516,000
TX        BL      Defendant submitted inflated income statements and misrepresented        Defendant received       BATF, FBI,
                  the source of his equity injection, in connection with a $213,000        19 months                IRS
                  SBA guaranteed loan. Additionally, he concealed and converted            confinement, 5 years
                  pledged proceeds and collateral to impede liquidation. *                 probation, and an
                                                                                           order to pay
                                                                                           $152,529 restitution
TX        BL      Convenience store/service station owner falsely represented that he      Owner received 6         TIGTA, DHS,
                  was a U.S. citizen on his SBA Form 912 in connection with a              months incarceration,    SSA-OIG,
                  $675,000 SBA guaranteed loan. *                                          and a $2,500 fine        USDA-OIG,
                                                                                                                    TEXAS-ABC




                                                            27
                                            APPENDIX VII
                                   6-Month Legal Actions Summary
                                October 1, 2003, through March 31, 2004

State   Program                   Alleged Violation(s) Prosecuted                             Legal Action          Investigated
                                                                                                                    Jointly With
TX        BL      Convenience store/service station owner falsely represented that he      Owner received 2         TIGTA, DHS,
                  was a U. S. citizen on his SBA Form 912 in connection with a             months                   SSA-OIG,
                  $435,000 SBA guaranteed loan. *                                          incarceration, and a     USDA-OIG,
                                                                                           $5,000 fine              TEXAS-ABC
TX        BL      Convenience store/service station owner falsely represented that he      Business owner           TIGTA, DHS,
                  was a U. S. citizen on his SBA Form 912 in connection with a             indicted                 SSA-OIG,
                  $1,200,000 SBA guaranteed loan. *                                                                 USDA-OIG,
                                                                                                                    TEXAS-ABC
                                                                                                                    & DPS
TX        BL      Two business owners conspired to submit fraudulent personal              Business owners          FBI
                  financial statements, a false purchase contract and fraudulent copies    pled guilty
                  of cashiers’ checks as proof of equity injection in connection with an
                  attempt to purchase another business for $2.7 million.
TX        BL      Convenience store/service station owner and wife falsely represented     Business owner and       TIGTA, DHS,
                  that they were U. S. citizens on their SBA Form 912 in connection        wife indicted            SSA-OIG,
                  with a $605,000 SBA guaranteed loan. *                                                            USDA-OIG,
                                                                                                                    TEXAS-ABC
                                                                                                                    & DPS
TX        BL      Packager assisted borrowers with submitting false and fraudulent         Business owner pled      FBI
                  documents in order to obtain loan approval, by inflating checking        guilty to an
                  accounts, submitting false gift letters, and using loan proceeds to      Information
                  purchase cashiers checks, which were used to represent capital
                  injections. *
VA        BL      A former management corporation director conspired to inflate the        Former                   FBI
                  purchase price of the management corporation properties, submit          management
                  false financial statements, and falsify capital injection to obtain      corporation director
                  loans. A second business operator and an attorney conspired in the       received 6 months
                  scheme.                                                                  confinement, 3
                                                                                           years probation,
                                                                                           $674,000 restitution
                                                                                           to SBA, $1,252,779
                                                                                           restitution to
                                                                                           financial institution.
                                                                                           The second business
                                                                                           operator and the
                                                                                           attorney were
                                                                                           indicted.




                                                            28
                                                      APPENDIX VII
                                             6-Month Legal Actions Summary
                                          October 1, 2003, through March 31, 2004

State       Program                         Alleged Violation(s) Prosecuted                           Legal Action         Investigated
                                                                                                                           Jointly With
VI              DL         Two joint property owners and an insurance adjuster conspired and        Property owners and    DHS OIG
                           falsely claimed damages to the owners’ property, which they claimed      adjuster indicted
                           were their primary residence, as a result of Hurricanes Bertha and
                           Georges. *
 VT             BL         Company president/owner submitted false invoices to the bank and         Company                FBI
                           collected receivables that were supposed to be turned over to the bank   president/owner
                           in connection with a $200,000 SBA guaranteed loan.                       indicted
 WY             BL         Sporting goods store owner submitted false personal financial            Sporting goods store   FBI
                           statements, where he failed to disclose four debts totaling $312,000,    owner received 1
                           to the bank in connection with two SBA guaranteed loans totaling         year and 1 day
                           $250,000. *                                                              incarceration, 3
                                                                                                    years probation, and
                                                                                                    an order to pay
                                                                                                    $147,535 in
                                                                                                    restitution

     * This case is further discussed in the narrative section of this report.

     Program codes: BL=Business Loans; DL=Disaster Loans; GC=Government Contracting and Business Development/Section 8(a)
     Business Development; IC = Investment Company

     Joint-investigation Federal agency acronyms: BATF=Bureau of Alcohol, Tobacco, and Firearms; DCIS=Defense Criminal
     Investigative Service; DHS=Department of Homeland Security; DOL/OIG=Department of Labor OIG; FBI=Federal Bureau of
     Investigation; IRS=Internal Revenue Service; IRS-CID=IRS Criminal Investigation Division; NCIS=Naval Criminal
     Investigative Service; SSA/OIG=Social Security Administration OIG; TEXAS-ABC=Texas Alcoholic Beverage Commission;
     TEXAS-DPS=Texas Department of Public Safety; TIGTA=Treasury Inspector General for Tax Administration;
     USDA/OIG=United States Department of Agriculture OIG




                                                                        29
                                             APPENDIX VIII
                                      Significant Recommendations
                                From Prior Semiannual Reporting Periods
                                Without Final Action as of March 31, 2004*

Report       Date                           Recommendation                              Management      Final Action
Number      Issued                                                                      Decision Date      Target
43H006021   9/30/94    Establish procedures for determining whether Section 8(a)          12/21/01        10/30/02
                       participants should no longer be considered economically
                       disadvantaged based on their ownership interest in their
                       8(a) firm, the equity and market value of their primary
                       residence, and the net worth of their spouses.
 98-03-01   3/31/98    Establish a loan agent monitoring system.                          7/21/98         9/30/99
87H002017   6/18/98    Provide definitive guidance and definitions to evaluate the        11/19/01        3/31/03
                       manufacturing criteria shown in regulations.
  0-25       9/7/00    Assert to the accuracy and completeness of performance              1/3/01         3/31/04
                       data, or if data is not currently accurate and complete,
                       explain how the Investment Division plans to overcome
                       any quality problems in the future.
  1-01      12/4/00    Develop Section 7(a) program indicators to gauge mission            5/10/01        6/30/03
                       effectiveness, key outcomes and quality of services and the
                       delivery process.
  1-11      3/27/01    Ensure that performance plans include indicators for                9/28/01        7/31/03
                       determining how effectively and efficiently the Section 8(a)
                       program is operating.
  1-19      9/27/01    Revise the scoring for the annual review process to ensure          3/27/02        12/31/03
                       the volume and weighting of point values of other questions
                       does not offset low scores for eligibility and credit quality.
  2-12      3/20/02    Develop a formal policy regarding effective supervisory             8/27/02        12/31/03
                       and enforcement actions.
  2-18       5/6/02    Develop an Agency-wide security plan to establis h and              6/28/02        11/17/03
                       implement the policies, procedures and practices for the
                       following: (1) full integration of the information security
                       approach and implementation process; (2) coordination
                       among program offices to support their security needs; (3)
                       guidance to the program office to implement information
                       system security controls; and (4) methods to monitor the
                       effectiveness of each part of information technology
                       security.
  2-33      9/30/02    Ensure that cooperative agreements and grants are solicited        12/10/02        1/30/04
                       to allow for proper planning and timely processing.
  3-06      1/30/03    Develop a process for estimating SBA's ownership in                 3/28/03        11/15/03
                       earnings from the Master Reserve Fund (MRF) that
                       provides accurate data for the financial statements.
  3-08      1/30/03    Initiate a new procurement action for fiscal and transfer          12/10/03        3/31/06
                       agent (FTA) activities and terminate the existing contract
                       with the FTA when a new contract can be enacted.

  *These are a subset of the universe of recommendations without final actions.


                                                           30
                                           APPENDIX VIII
                                    Significant Recommendations
                              From Prior Semiannual Reporting Periods
                              Without Final Action as of March 31, 2004*

Report      Date                          Recommendation                             Management       Final Action
Number     Issued                                                                    Decision Date       Target
 3-08      1/30/03    Review FTA activities and identify contract costs for fees       10/15/03         11/17/03
                      and services. Report these contract costs contract costs in
                      proposed Master Reserve Fund (MRF) financial statements
                      so future FTA contracts will have historical cost data for
                      comparison purposes.
 3-10       2/6/03    Design a review guide to incorporate performance aspects          10/01/03        12/31/03
                      to address financial risk, address the specific requirements
                      of the Section 504 loan program, and incorporate a
                      performance-driven scoring system.
 3-15      3/17/03    Establish a time frame for completing the training of all         11/6/03         12/31/03
                      individuals involved with guaranty purchase processing.
 3-26      5/13/03    Develop a comprehensive Microloan Program SOP and a               8/28/03         12/31/03
                      systematic approach to disseminate guidance.
 3-26      5/13/03    Ensure that Microloan Program goals are set and that           Appeal pending   Depends on
                      outcome-oriented data is required of program participants.                        appeal.
 3-33       7/1/03    Revise SOP on Small Business Investment Companies                 10/6/03        12/28/03
                      (SBICs) to ensure it includes requirements to perform
                      quarterly risk assessments for capitally impaired SBICs,
                      include an analysis of potential for repayment of
                      outstanding leverage, and determine what criteria should be
                      used to recommend an SBIC be transferred to liquidation.

 *These are a subset of the universe of recommendations without final actions.




                                                         31
